Colombian National Pleads Guilty To Role In Defrauding the Export-Import Bank of the United States Of More Than $1 Million
EXPORT-IMPORT BANKof the UNITED STATES
Search
ABOUTUS
NEWS &EVENTS
PRODUCTS
TOOLS
SMALLBUSINESS
Tests
Skip to Main Content
Colombian National Pleads Guilty To Role In Defrauding the Export-Import Bank of the United States Of More Than $1 Million
About Us
80th Anniversary
Who We Are
Leadership
Strategic Partners
Charter and Bylaws
What We Do
Products
Small Business
Special Initiatives
Special Assistance
Key Markets
Key Industries
Success Stories
Export Numbers by State and Congressional District
General Bank Policies
Contact
Ex-Im Bank Headquarters
Regional Export Finance Centers
Small Business Group
Minority and Woman-Owned Businesses
Sub-Saharan Africa
Renewable Energy
Trade Finance
Trade Credit Insurance Division
Working Capital
Project and Structured Finance
Global Business Development
News Media - Communications
Operations and Data Quality
Contracting Services
Library
Freedom of Information Act
Reports
Brochures
Speeches & Testimony
Newsletters
Notices
Newsroom
Careers
Equal Employment Opportunity
Job Opportunities
Benefits
Salary
Diversity
Employee Viewpoint Survey
Resume Format
Pre-Employment Form
Onboarding Forms
Office of Inspector General (OIG)
News & Events
From the Chairman
Fred's Thread
Gallery
News Releases
2014
2013
2012
2011
2010
2009
2008
2007
2006 and Prior
Events
Annual Conferences
Speeches & Testimony
Ex-Im Bank in the News
Board & Credit Committee Meetings
Board Meetings
Credit Committee Minutes
Official Notices and Public Comments
Economic Impact Notices
Newsletters
Newsroom
Products
Special Initiatives
How To Apply
New Products
Working Capital
Application Process
Supply Chain Finance Guarantee Program
Global Credit Express
Export Credit Insurance
Express Insurance
Small Business Insurance
Multi Buyer
Single Buyer
Financial Institution Buyer Credit Insurance
Medium Term
Letter of Credit
Reinsurance
Standard Repayment Terms
Loan Guarantee
Application Process
Renewable Express
Project & Structured Finance
Transportation
Medium-Term Delegated Authority Program (MTDA)
Credit Guarantee Facility
Foreign Currency Guarantee
Financing Fees for Ancillary Services
Standard Repayment Terms
Finance Lease Guarantee
Direct Loan
General Bank Policies
Tools
Online Services
Ex-Im Online
Letter of Interest login
Electronic Compliance Program
Electronic Claim Filing System
Broker Locator
Lender Locator
Applications and Forms
Help Finding a Form
Working Capital Applications and Forms
Export Credit Insurance Applications and Forms
Letter of Interest
Finance Lease Guarantee Applications and Forms
Loan Guarantee & Direct Loan Applications and Forms
Guide for Fillable PDF Forms
Country Limitation Schedule
CLS Historical Reference
Credit Standards
Exposure Fees
Medium-Term Exposure Fee Advice
Long-Term Exposure Fee Advice
Short-Term FIBC Exposure Fee Financing Calculator
Short-Term ELC & ESS Exposure Fee Financing Calculator
Credit Classification Definitions for Non-Financial Institution Risk
Credit Classification Definitions for Financial Institution Risk
Credit Classification and Credit Rating Agency Rating Matrix
Commercial Interest Reference Rates
About CIRR Rates
Prior CIRR Rates
Claims and Asset Management
Credit Administration and Operations
For Brokers
For Lenders
For Buyers
Small Business
Global Access for Small Business
Small Business Customers
Exploring Exporting
Initiating Exporting
Expanding Exporting
FAQ
Brokers and Lenders
Insurance Broker Resources
Bank Resources
Insurance and Loan Products
Express Insurance
Single-Buyer Insurance
Small Business Multi-Buyer Insurance
Global Credit Express
Working Capital Guarantee
Specialized Products
Ex-Im Bank Policies
Requirements and Restrictions
Small Business Defined
Country Limitation Schedule
More Information about Exporting
Credit Reports
Discounting
Exporting Services
Factoring
Letter of Credit vs. Open Account
Trade Credit Insurance
Working Capital Loans and Guarantees
Glossary
Ex-Im Online
Contact a Small Business Specialist
Success Stories
Customer Testimonials
Search
Leave this field empty
Advanced Search
OFFICE OF THE INSPECTOR GENERAL
Advanced Search
You Are Here:
Home >
Office of the Inspector General >
Press Releases >
share this page
::
subscribe
Subscribe OverlayClose
Ex-Im Bank Updates in your Inbox
UPDATE YOUR EXISTING ACCOUNT
To edit your preferences, unsubscribe or change the list to which you subscribe, enter your email address here, and submit this form.  You will not be creating any additional accounts if you already created one.
OIG Press Releases
OIG Reports
OIG Hotline
Whistleblower Protection Ombudsman
What's New Archive
History
OIG Senior Staff
OIG Job Vacancies
Subscribe/Unsubscribe to Email Updates
Contact OIG
COLOMBIAN NATIONAL PLEADS GUILTY TO ROLE IN DEFRAUDING THE EXPORT-IMPORT BANK OF THE UNITED STATES OF MORE THAN $1 MILLION
Washington - Febe Durango-Rueda, 52, a Colombian national, pleaded guilty on Nov. 20, 2009, to participating in a scheme to defraud the Export-Import Bank of the United States (Ex-Im Bank) of more than $1 million, announced Assistant Attorney General of the Criminal Division Lanny A. Breuer and Acting Inspector General Osvaldo L. Gratacos of the Ex-Im Bank, Office of the Inspector General.
Durango pleaded guilty before Judge Richard W. Roberts in U.S. District Court in Washington to a one-count criminal information charging her with conspiracy to defraud the Ex-Im Bank and to commit mail fraud. Durango was arrested by Special Agents of the Ex-Im Bank Office of the Inspector General on May 4, 2009, at Miami International Airport while attempting to enter the United States. According to the court document, the Ex-Im Bank is an independent U.S. agency that assists in the export of U.S. goods and services to companies overseas, in part through guaranteeing loans to foreign purchasers of U.S. goods.
According to plea documents, Durango was the president of Droservicios Ltda., a Colombian medical services company. Durango admitted that she and others falsified financial statements that Droservicios submitted to the Ex-Im Bank in support of a loan guarantee for a deal worth more than $1.3 million.
Specifically, Durango and others applied for an Ex-Im Bank loan guarantee that purported to be for the purpose of increasing Droservicios’s leasing services of specialized medical equipment to public health institutions. According to the application, the specialized medical equipment was to include a CT scanner and mammography unit as well as other medical imaging equipment. Durango admitted that she and others then shipped medical equipment of a much lesser value than the specialized medical equipment that was the basis for the Ex-Im Bank guaranteed loan and fabricated invoices to fraudulently reflect that the specialized medical equipment was purchased and shipped. Durango admitted that she and others shared the difference in the loan amount and the purchase price of the less valuable medical equipment that was actually purchased and shipped. According to court documents, Durango and others then allowed the loan to default, triggering the Ex-Im Bank’s obligation to cover the debt. The Ex-Im Bank, without knowing of the fraud committed by Durango and others, paid more than $1.3 million to satisfy the guarantee.
Durango is scheduled to be sentenced on Feb. 4, 2010, and faces a maximum sentence of five years in prison and a $250,000 fine. According to the plea, Durango has agreed to pay $139,064 in forfeiture and make full restitution in the amount of $1,332,081.
The scheme was initially discovered by Ex-Im Bank staff in October 2006 and referred to the Ex-Im Bank Office of Inspector General in 2007 for further investigation. The case is being prosecuted by Trial Attorneys Nicole H. Sprinzen and Brigham Cannon of the Criminal Division=s Fraud Section. The case is being investigated by the Ex-Im Bank, Office of Inspector General and the U.S. Postal Inspection Service.
Site Map ::
Contact Us ::
Web Site Feedback ::
Accessibility ::
Privacy ::
FOIA ::
E-Gov ::
USA.gov ::
White House ::
RSS
Open Government Initiative ::
No FEAR Act ::
Inspector General ::
exim.gov Linking Policy ::
Competitiveness Reports ::
Ex-Im Online
About Us
+
80th Anniversary
+
Who We Are
+
What We Do
+
General Bank Policies
+
Contact
+
Library
+
Careers
+
Office of Inspector General (OIG)
News & Events
+
From the Chairman
+
News Releases
+
Events
+
Ex-Im Bank in the News
+
Board & Credit Committee Meetings
+
Official Notices and Public Comments
+
Economic Impact Notices
+
Newsletters
+
Newsroom
Products
+
Special Initiatives
+
How To Apply
+
New Products
+
Working Capital
+
Supply Chain Finance Guarantee Program
+
Global Credit Express
+
Export Credit Insurance
+
Loan Guarantee
+
Finance Lease Guarantee
+
Direct Loan
+
General Bank Policies
Tools
+
Online Services
+
Broker Locator
+
Lender Locator
+
Applications and Forms
+
Country Limitation Schedule
+
Credit Standards
+
Exposure Fees
+
Commercial Interest Reference Rates
+
Claims and Asset Management
+
Credit Administration and Operations
+
For Brokers
+
For Lenders
+
For Buyers
Small Business
+
Global Access for Small Business
+
Small Business Customers
+
Brokers and Lenders
+
Insurance and Loan Products
+
Ex-Im Bank Policies
+
More Information about Exporting
+
Glossary
+
Ex-Im Online
+
Contact a Small Business Specialist
+
Success Stories
+
Customer Testimonials
back to top